<html>
<title> - DISRUPTER SERIES: SMART COMMUNITIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                   DISRUPTER SERIES: SMART COMMUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON DIGITAL COMMERCE AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 16, 2017

                               __________

                           Serial No. 115-14
                           
                           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                       
                                  __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-371 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6106110e210214121509040d114f020e0c4f">[email&#160;protected]</a> 
                                  
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                                 7_____

        Subcommittee on Digital Commerce and Consumer Protection

                         ROBERT E. LATTA, Ohio
                                 Chairman
GREGG HARPER, Mississippi            JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BEN RAY LUJAN, New Mexico
MICHAEL C. BURGESS, Texas            YVETTE D. CLARKE, New York
LEONARD LANCE, New Jersey            TONY CARDENAS, California
BRETT GUTHRIE, Kentucky              DEBBIE DINGELL, Michigan
DAVID B. McKINLEY, West Virgina      DORIS O. MATSUI, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            JOSEPH P. KENNEDY, III, 
LARRY BUCSHON, Indiana                   Massachusetts
MARKWAYNE MULLIN, Oklahoma           GENE GREEN, Texas
MIMI WALTERS, California             FRANK PALLONE, Jr., New Jersey (ex 
RYAN A. COSTELLO, Pennsylvania           officio)
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     1
    Prepared statement...........................................     2
Hon. Gregg Harper, a Representative in Congress from the State of 
  Mississippi, opening statement.................................     3
Hon. Ben Ray Lujan, a Representative in Congress from the State 
  of New Mexico, opening statement...............................     4
    Prepared statement...........................................     5
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     7
Hon. Peter Welch, a Representative in Congress from the State of 
  Vermont, opening statement.....................................     7

                               Witnesses

Jennifer Gallagher, Director of Public Service, City of Columbus, 
  Ohio...........................................................     9
    Prepared statement...........................................    11
Kyle Chisek, Director of Bureau Relations, Office of Mayor Ted 
  Wheeler, City of Portland, Oregon..............................    17
    Prepared statement...........................................    18
Brenna Berman, Commissioner and Chief Information Officer, 
  Chicago Department of Innovation and Technology \1\............    26
Kurt Gruendling, Vice President of Marketing and Business 
  Development, Waitsfield and Champlain Valley Telecom...........    28
    Prepared statement...........................................    30
Jennifer Clark, Director, Center for Urban Innovation, and 
  Associate Professor of Public Policy, Georgia Institute of 
  Technology.....................................................    40
    Prepared statement...........................................    42
Alexander Pazuchanics, Policy Coordinator, Office of the Mayor, 
  City of Pittsburgh, Pennsylvania...............................    56
    Prepared statement...........................................    58

                           Submitted Material

Statement of CA Technologies by David J. Bressler, Vice 
  President, API Management Solutions, March 16, 2017, submitted 
  by Mr. Harper..................................................    81
Letter of March 16, 2017, from Honda North America, Inc., to Mr. 
  Latta and Ms. Schakowsky, submitted by Mr. Harper..............    85
Statement of Panasonic, ``A Portfolio Microgrid in Denver, 
  Colorado,'' submitted by Mr. Harper............................    87
Statement of ITS America, March 16, 2017, submitted by Mr. Harper    89
Letter of March 15, 2017, from Elizabeth Hyman, Executive Vice 
  President, CompTIA, and Skip Newberry, Chairman, Technology 
  Councils of North America, and CEO, Technology Association of 
  Oregon, to Mr. Latta and Ms. Schakowsky, submitted by Mr. 
  Harper.........................................................    92
Statement of March 16, 2017, by ITI, CompTIA, Smart Cities 
  Council, and TIA, submitted by Mr. Harper......................    95

----------
\1\ Ms. Berman did not submit a written statement for the record.
Report by Deloitte, ``Wireless Connectivity Fuels Industry Growth 
  and Innovation in Energy, Health, Public Safety, and 
  Transportation,'' January 2017, submitted by Mr. Harper........    99
Letter of March 16, 2017, from Marc Rotenberg, President, 
  Electronic Privacy Information Center, et al., to Mr. Latta and 
  Ms. Schakowsky, submitted by Mr. Harper........................   118

 
                  DISRUPTER SERIES: SMART COMMUNITIES

                              ----------                              


                        THURSDAY, MARCH 16, 2017

                  House of Representatives,
     Subcommittee on Digital Commerce and Consumer 
                                        Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:17 a.m., in 
room 2123 Rayburn House Office Building, Hon. Robert E. Latta 
(chairman of the subcommittee) presiding.
    Members present: Representatives Latta, Harper, Upton, 
Lance, Bilirakis, Bucshon, Mullin, Walters, Costello, Walden 
(ex officio), Lujan, Clarke, Dingell, Matsui, Welch, Kennedy, 
Green, and Doyle.
    Staff present: Elena Brennan, Legislative Clerk, Oversight 
and Investigations; Jordan Davis, Director of Policy and 
External Affairs; Blair Ellis, Press Secretary/Digital 
Coordinator; Melissa Froelich, Counsel, Digital Commerce and 
Consumer Protection; Giulia Giannangeli, Legislative Clerk, 
Digital Commerce and Consumer Protection; Bijan Koohmaraie, 
Counsel, Digital Commerce and Consumer Protection; Katie 
McKeough, Press Assistant; Alex Miller, Video Production Aide 
and Press Assistant; Paul Nagle, Chief Counsel, Digital 
Commerce and Consumer Protection; Olivia Trusty, Professional 
Staff Member, Digital Commerce and Consumer Protection; 
Michelle Ash, Minority Chief Counsel, Digital Commerce and 
Consumer Protection; Elisa Goldman, Minority Counsel; and 
Caroline Paris-Behr, Minority Policy Analyst.
    Mr. Latta. Well, good morning. I would like to call the 
Subcommittee on Digital Commerce and Consumer Protection to 
order, and the Chair now recognizes himself for 5 minutes for 
an opening statement.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Good morning, and welcome to our second Disrupter Series 
hearing this week, and I want to thank our panels for being 
here to testify today. And we certainly appreciate your 
flexibility as things moved around due to our full committee 
markup last week, so we really appreciate that. The topic for 
today's hearing is smart communities. One of the hallmarks of 
the Disrupter Series is looking at emerging technologies and 
platforms to understand how technology is bringing new benefits 
to the consumer while disrupting traditional markets and 
regulatory models.
    Today we have the opportunity to look at these issues from 
a slightly different perspective and hear from the experts on 
the ground evaluating new technologies in their communities. In 
some ways, no marketplace is more important than the local 
government where every service is paid for with hard-earned tax 
dollars using new technologies at the local level in our 
hometowns so they may efficiently deliver better services to 
their constituents.
    Many of us sitting on the dais have experience in local 
government. While many of the challenges and peculiarities are 
similar if not the same among who we serve, the speed of 
technology can also be measured by how many of these 
technologies were available to us years back. Leveraging new 
technology to provide, measure, and improve service to 
constituents in our communities is the ultimate goal. There are 
opportunities to improve education, traffic, and health. We can 
drastically increase mobility and access to jobs. From safety 
to sanitation to the environment, communities that wisely 
invest in technologies can make a real difference in Americans' 
lives.
    While funding is an issue we all face, the first step is 
identifying the local issues that can truly be transformed by 
connected and other technologies. I am looking forward to 
hearing from our witnesses on the panel about their ideas and 
experiences, solving the most pressing local issues with the 
new technology.
    I would also like to extend a warm welcome to Jennifer 
Gallagher from Columbus, Ohio, on the panel this morning. As 
the winner of the Department of Transportation's Smart City 
Challenge, Columbus has quite a bit of work ahead of them to 
implement on their goal of reducing infant mortality. If there 
is one thing I am sure about is the ingenuity and grit of my 
fellow Ohioans to deliver to our constituents.
    I would like to thank you all again for adjusting your 
plans to be here with us this morning, and I look forward to 
your testimony.
    [The statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Good morning and welcome to our second Disrupter Series 
hearing in two days. Thank you to our panelists for being here 
to testify. We sincerely appreciate your flexibility as things 
moved around due to our full committee markup last week. The 
topic for today's hearing is Smart Communities. One of the 
hallmarks of the Disrupter Series is looking at emerging 
technologies and platforms to understand how technology is 
bringing new benefits to the consumer while disrupting 
traditional markets and regulatory models.
    Today we have the opportunity to look at these issues from 
a slightly different perspective and hear from the folks on the 
ground evaluating new technologies in their communities. In 
some ways no marketplace is more important than the local 
government, where every service is paid for with hard earned 
tax dollars. Using new technologies at the local level, in our 
hometowns, may be able to deliver better services more 
efficiently.
    Many of us sitting on the dais have experience in local 
government. While many of the challenges and political 
realities are similar, if not the same, to when we served, the 
speed of technology can also be measured by how many of these 
technologies were available to use years ago.
    Leveraging new technology to provide, measure, and improve 
service to constituents in our communities is the ultimate 
goal. There are opportunities to improve education, traffic and 
health. We can drastically increase mobility and access to 
jobs. From safety to sanitation to the environment, communities 
that wisely invest in technologies can make a real difference 
in American's lives.
    While funding is an issue we all face, the first step is 
identifying the local issues that could truly be transformed by 
connected and other technologies. I am looking forward to 
hearing from the witnesses on the panel about their ideas and 
experiences solving the most pressing local issues with new 
technology.
    I would like to extend a warm welcome to Jennifer Gallagher 
from Columbus, Ohio on the panel this morning. As the winner of 
the Department of Transportation's Smart City Challenge, the 
city has quite a bit of work ahead of them to implement and 
deliver on their goal of reducing infant mortality. If there is 
one thing I am sure about, it is the ingenuity and grit of my 
fellow Ohioans to deliver for our constituents.
    I would like to thank you all again, for adjusting your 
plans to be here with us this morning and I look forward to 
your testimony.

    Mr. Latta. And I have some time left on the clock, are 
there any other members? The Chair recognizes the gentleman, 
the vice chair from Mississippi.

  OPENING STATEMENT OF HON. GREGG HARPER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF MISSISSIPPI

    Mr. Harper. Thank you, Mr. Chairman, and thank you for 
calling this hearing today on Smart Communities, the second 
hearing this week in our Disrupter Series which provides us the 
opportunity to examine and better understand how these 
advancements will affect our daily lives in a rapidly evolving 
world of interconnectivity.
    It is no secret that infrastructure management is a growing 
problem in the United States. Improving infrastructure 
management and maximizing investment in roads and bridges and 
other infrastructures not only improve our quality of life, it 
also safeguards the flow of commerce, strengthens our economy, 
and ensures we are competitive both locally and globally.
    I am proud to say that a Mississippi company, Camgian 
Microsystems, headquartered in my district in Starkville, 
Mississippi, at the home of Mississippi State University, is 
driving innovations and pioneering efforts to address the 
problem and help to find cutting edge solutions. Camgian's 
award-winning product, Egburt, released in October 2014, is a 
complete internet of things cloud service comprising software, 
hardware, and communications.
    Egburt utilizes proprietary sensing and information 
processing technology to deliver real time, actionable 
intelligence designed to be used by commercial and government 
customers for a broad range of remote monitoring applications 
ranging from retail operations to infrastructure for both 
bridges, dams, and other items. By leveraging the experience 
and success of Egburt's software platform, Camgian engineers, 
in conjunction with U.S. Army Corps of Engineers, developed the 
intelligent decision support, or IDS, system to improve the 
performance and reliability of critical infrastructure.
    In May of last year, Camgian engineers completed the 
installation of the IDS system on the Markland dam bridge and 
locks system which is 1,395 feet long and a key part of the 
Ohio River navigation system. It has been successfully 
operating since that time. As a result of this contract, we 
could see groundbreaking development in infrastructure, health, 
and management that could serve as the cornerstone for the 
design and build of next generation infrastructure management 
systems.
    I am looking forward to hearing from each one of you today, 
and I appreciate the chairman calling this hearing, and I yield 
back.
    Mr. Latta. Thank you very much. The gentleman yields back. 
The Chair now recognizes the acting ranking member of the 
subcommittee, the gentleman from New Mexico, for 5 minutes.

 OPENING STATEMENT OF HON. BEN RAY LUJAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Lujan. Thank you so much, Mr. Chairman. It is a 
pleasure to sit next to you today for the hearing in the 
Digital Commerce and Consumer Protection Subcommittee on Smart 
Communities. I want to thank the ranking members for working 
together to convene this hearing today, the chairman and the 
majority, and I thank all the witnesses for their attendance 
today as well.
    Let me begin by noting my appreciation for the title of 
today's hearing, Smart Communities, because in a State like my 
home of New Mexico it really is about building smart 
communities. And as I think today's hearing will show, there 
are exciting innovations happening everywhere from the 
assembled cities here in Columbus, Chicago, Pittsburgh, and 
Portland, including New Mexico where we have two national labs 
and Intel.
    Take what is happening in Santa Fe. In New Mexico, water is 
a precious resource which is why Santa Fe is deploying cellular 
smart meters to track consumption and to identify leaks and 
other problems. These types of advancements improve quality of 
life, save money, and help policymakers make better decisions. 
However, there is no reason that these advancements should be 
reserved for just cities and Silicon Valley. We must act to 
prevent the development of a new digital divide by helping 
communities of all sizes adopt smart infrastructure and 
solutions.
    To guarantee that smaller and rural communities aren't left 
behind, I am working with Senators Maria Cantwell and 
Congresswoman Suzan DelBene to develop legislation to promote 
the use of smart technologies while protecting privacy and 
guarding against cyber attacks.
    Our draft legislation seeks to enhance Federal coordination 
of smart community efforts and provide communities with a 
resource guide and technical assistance, leverage the expertise 
of our national laboratories including Los Alamos and Sandia to 
help communities adopt smarter infrastructure and real 
solutions, launch regional demonstration efforts to test and 
advance smart community technologies and systems, and promote 
the development of a technology-skilled workforce to support 
the deployment and development of smart communities. We believe 
this effort will make communities across the country more 
liveable and sustainable, and there is no reason this effort 
shouldn't be a bipartisan effort.
    I believe that this committee and the Congress has the 
responsibility to work together to ensure that every corner of 
America benefits from the infrastructure of tomorrow, which is 
why critically it isn't enough that we work together to advance 
the ideas under discussion today, we have to work together to 
deploy broadband infrastructure that reaches all Americans. I 
often joked with the previous chairman of the FCC that if we 
are having a conversation of having broadband at 30,000 feet 
from Los Angeles to New York, surely we can be talking about 
having broadband in all parts of America on the ground.
    In the weeks ahead I look forward to working with my 
colleagues. I want to thank Mr. Latta again for holding this 
important hearing, and with that I yield to Mr. Doyle of 
Pennsylvania.
    [The statement of Mr. Lujan follows:]

                Prepared statement of Hon. Ben Ray Lujan

    Thank you, Mr. Chairman. It is a pleasure to sit next to 
you for today's Digital Commerce and Consumer Protection 
subcommittee hearing on Smart Communities.
    I thank you and the Ranking Members for working together to 
convene this hearing today and I thank all the witnesses for 
their attendance.
    Let me begin by noting my appreciation for the title of 
today's hearing: ``Smart Communities.'' Because in a State like 
my home of New Mexico, it really is about building smart 
communities and as I think today's hearing will show--there are 
exciting innovations happening everywhere--from the assembled 
cities here: Columbus, Chicago, Pittsburgh, and Portland--to 
New Mexico, where we have with two national labs and Intel.
    Take what's happening in Santa Fe. In New Mexico, water is 
a precious resource, which is why Santa Fe is deploying 
cellular smart meters to track consumption and to identify 
leaks and other problems.
    These types of advancements improve quality of life, save 
money, and help policymakers make better decisions. However, 
there is no reason that these advancements should be reserved 
just for cities and Silicon Valley. We must act to prevent the 
development of a new digital divide by helping communities of 
all sizes adopt smart infrastructure solutions
    To guarantee that smaller and rural communities aren't left 
behind, I am working with Senator Maria Cantwell and 
Congresswoman Suzan DelBene to develop legislation to promote 
the use of smart technologies while protecting privacy and 
guarding against cyber-attacks.
    Our draft legislation seeks to:
    <bullet> Enhance Federal coordination of smart community 
efforts and provide communities with a resource guide and 
technical assistance.
    <bullet> Leverage the expertise of our National 
Laboratories, including Los Alamos National Laboratory and 
Sandia in New Mexico, to help communities adopt smart 
infrastructure solutions.
    <bullet> Launch regional demonstration efforts to test and 
advance smart community technologies and systems.
    <bullet> Promote the development of a technology skilled 
workforce to support the development of smart communities.
    We believe that this effort will make communities across 
the country more livable and sustainable. And there is no 
reason this effort shouldn't be a bipartisan effort.
    I believe that this committee and this Congress has a 
responsibility to work together to ensure that every corner of 
America benefits from the infrastructure of tomorrow.
    Which is why, critically, it isn't enough that we work 
together to advance the ideas under discussion today. We have 
to work together to deploy broadband infrastructure so that it 
reaches all Americans.

    Mr. Doyle. Thank you, Mr. Chairman. I want to thank you for 
hosting this important hearing today on Smart Communities and 
for featuring my hometown and district, Pittsburgh, and I want 
to welcome Alex Pazuchanics--we call him Paz, for short--for 
being here today.
    You know, Pittsburgh has changed a lot. You don't have to 
wipe soot off your car in the morning anymore and the sky isn't 
full of dust and ash anymore. We have become one of the most 
liveable and innovative cities in the country. Pittsburgh has 
deployed a range of technologies and on its smart cities 
platform and as Alex will point out in his testimony this isn't 
just sensors and connected infrastructure, it is cloud 
computing and data analytics on the back end too, taking that 
data and using it to improve traffic patterns, reduce vehicle 
idle time, improve air quality, and make our city more 
liveable.
    Now at the risk of sounding biased, I think Pittsburgh is 
in many ways a perfect test bed for the city of the future. And 
as these technologies develop what the city is doing is 
creating a modular infrastructure that will allow for the rapid 
deployment of new technologies and capabilities. I know last 
year was the first round of the Smart City Challenge at the 
Federal level, but we have been doing this stuff in Pittsburgh 
for a long time and we are going to continue to do it in 
Pittsburgh, but we need to continue Federal support. And I want 
to thank all my colleagues here today for demonstrating the 
importance of this work at the Federal level and I want to 
thank all the panelists for your testimony today. And Mr. 
Lujan, thank you for yielding me this time and I will yield 
back.
    Mr. Lujan. I yield back, Mr. Chairman.
    Mr. Latta. Thank you very much. The gentleman yields back 
and the Chair now recognizes the chairman of the full 
committee, the gentleman from Oregon, 5 minutes. Thank you.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman, and I want to welcome 
our witnesses. We appreciate your testimony and how our local 
communities are leading in innovation and great ideas in every 
sector, because I believe they are laboratories for American 
innovation and new ideas.
    As we will hear today, many communities across our country 
have adopted technology to improve their citizens' quality of 
life, but counties, cities, towns, and parishes all face the 
same question when they evaluate new technology and projects. 
Many communities are still working to understand how to adopt 
and when to adopt technology that will improve efficiency, 
increase accountability, accessibility, and streamline everyday 
tasks for their citizens.
    Several organizations, including the Department of 
Transportation, have worked to discover what projects local 
governments were interested in pursuing and hear from residents 
about the projects they think would be most advantageous in 
pursuing. In total, 78 cities have submitted applications for 
DOT's Smart City Challenge, and today I look forward to hearing 
from some of the finalists about your proposals and I 
appreciate your testimony, particularly how you have engaged 
with people in your communities to gather ideas or encourage 
adoption of them.
    The innovation agenda for this subcommittee includes 
promoting many technologies that have natural applications for 
local governments, but we must acknowledge the challenges. 
These ideas may face difficulties with both funding and 
adoption. There are also important data sharing, cybersecurity, 
and privacy issues that need to be addressed when government 
entities are engaging with private companies to provide 
transportation, energy, or other community services, so my hope 
is we can explore many of these issues during today's hearing 
and into the future.
    Today we have a chance to hear from several cities and 
other experts who are on the front lines of finding the value 
proposition for deploying smart community technology, and 
despite my colleague's comments about Pittsburgh which is a 
wonderful city, it ain't got nothing on Portland.
    I would especially like to thank Mr. Chisek from my home 
State of Oregon and the from the City of Portland. He is here 
to talk about projects that Portland is working on, as the City 
of Portland has been a national leader on these issues for a 
long time. So I want to thank you for making the trek back 
here, and we appreciate all your innovation.
    It is really a fun part of this job, I think, for all of us 
is to hear what is going on on the ground and how we can help 
facilitate it and learn from it and take the innovation from 
our local laboratories, maybe even apply it to the Federal 
Government. So with that, Mr. Chairman, I yield back the 
balance of my time and I thank you for your leadership on these 
issues.
    [The statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Local communities are the laboratories of American ideas 
and innovation. As we will hear today, many communities across 
our country have adopted technology to improve their citizens' 
quality of life. But counties, cities, towns, and parishes all 
face the same questions when they evaluate new technology and 
projects. Many communities are still working to understand how 
to adopt, and when to adopt, technology that will improve 
efficiency, increase accessibility, and streamline everyday 
tasks for their citizens.
    Several organizations, including the Department of 
Transportation, have worked to discover what projects local 
governments were interested in pursuing and hear from residents 
about the projects that they think would be most advantageous 
in pursuing. In total, seventy-eight cities submitted 
applications for DOT's Smart City Challenge, and today I look 
forward to hearing from some of the finalists about their 
proposals. Particularly how they have engaged with folks in 
their communities to gather ideas or encourage adoption.
    The innovation agenda for this subcommittee includes 
promoting many technologies that have natural applications for 
local governments, but we must acknowledge the challenges. 
These ideas may face difficulties with both funding and 
adoption. There are also important data sharing, cybersecurity, 
and privacy issues that need to be addressed when government 
entities are engaging with private companies to provide 
transportation, energy, or other community services. My hope is 
that we can explore many of these issues during today's hearing 
and into the future.
    Today, we have the chance to hear from several cities and 
other experts who are on the front lines of finding the value 
proposition for deploying smart community technology. I would 
especially like to thank Mr. Chisek from my home State of 
Oregon for being here to talk about the projects that Portland 
is working on, as the City of Portland has been a national 
leader on these issues. Thank you all for being here.

    Mr. Latta. Well, thank you very much. The gentleman yields 
back. And at this time, the Chair would recognize the gentleman 
from Vermont, who is claiming the ranking member's time.

  OPENING STATEMENT OF HON. PETER WELCH, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF VERMONT

    Mr. Welch. I thank you very much. Mr. Chairman, as you 
know, the challenges facing rural America are acute. There is a 
significant population shift into urban areas. Rural America 
has enormous challenges. You and I have started a rural caucus 
and it is because we believe that there has to be a solid 
future in rural America. That can't happen unless we have solid 
internet. We have to have the same speed, we have to have the 
same access and the same quality in rural America as in urban 
America and we can't turn our back.
    And folks who are here today, including Kurt Gruendling--
thank you for coming--from Waitsfield Telecom, are doing the 
hard practical work to make certain that rural America has the 
resources they need, the infrastructure they need in order to 
be viable. So I am delighted that we are having this hearing 
and that Mr. Gruendling from Waitsfield Telecom is here.
    You know, he in addition to being vice president of 
business developing and marketing, he does all kinds of things 
in the community. You understand that if you are in rural 
America you have a job and you have another job and then you 
have the community service and you have more community service, 
and that is what you do in addition to raising his twins who 
are 15 years old. But Waitsfield Telecom is three generations 
of ownership in the same family; it has been around for 113 
years. They serve Mad River in the Champlain Valley areas and 
it is really crucial to our schools, to our businesses there; 
it is like 28,000 people.
    But how do you deploy and provide service in small rural 
areas that have mountainous regions and technical challenges? 
The big carriers don't want to do it because they can't make as 
much money as they want, but I also think they don't do it 
because they aren't as smart as the small carriers like 
Waitsfield Telecom that figure out practical solutions to real 
problems where they have an ongoing commitment to the people in 
that community.
    So this hearing is very important. Our work on the rural 
caucus and in this committee is incredibly important. Our 
chairman of the full committee has a pretty broad rural 
district, so my hope is that this committee more than any other 
committee in this Congress is going to stand up for rural 
America. Thank you.
    Mr. Latta. Thank you very much. The gentleman yields back, 
and that concludes our member opening statements. The Chair 
would like to remind members that pursuant to committee rules, 
all members' opening statements will be made part of the 
record.
    We want to thank all the witnesses again for being with us 
today and taking the time to testify before the subcommittee. 
Today's witnesses will have the opportunity to give opening 
statements followed by a round of questions from the members.
    Our witness panel for today's hearing will include Jennifer 
Gallagher, director of Public Service for the City of Columbus, 
Ohio; Kyle Chisek, director of Bureau Relations in the office 
of Mayor Ted Wheeler of the City of Portland, Oregon; Ms. 
Brenna Berman, commissioner and chief information officer at 
the Chicago Department of Innovation and Technology; Mr. Kurt 
Gruendling, vice president of Marketing and Business 
Development at Waitsfield and Champlain Valley Telecom; Dr. 
Jennifer Clark, director of Center for Urban Innovation and 
associate professor of public policy at Georgia Institute of 
Technology; and maybe I should just go with Paz too--and Mr. 
Alexander Pazuchanics, the policy advisor at the office of the 
mayor for the City of Pittsburgh.
    We appreciate you all being here today and we look forward 
to the panel and the discussion today, and with Ms. Gallagher 
you are now recognized for 5 minutes to give an opening 
statement. Thanks very much.

 STATEMENTS OF JENNIFER GALLAGHER, DIRECTOR OF PUBLIC SERVICE, 
    CITY OF COLUMBUS, OHIO; KYLE CHISEK, DIRECTOR OF BUREAU 
   RELATIONS, OFFICE OF MAYOR TED WHEELER, CITY OF PORTLAND, 
   OREGON; BRENNA BERMAN, COMMISSIONER AND CHIEF INFORMATION 
OFFICER, CHICAGO DEPARTMENT OF INNOVATION AND TECHNOLOGY; KURT 
     GRUENDLING, VICE PRESIDENT OF MARKETING AND BUSINESS 
DEVELOPMENT, WAITSFIELD AND CHAMPLAIN VALLEY TELECOM; JENNIFER 
  CLARK, DIRECTOR, CENTER FOR URBAN INNOVATION, AND ASSOCIATE 
 PROFESSOR OF PUBLIC POLICY, GEORGIA INSTITUTE OF TECHNOLOGY; 
 AND ALEXANDER PAZUCHANICS, POLICY COORDINATOR, OFFICE OF THE 
            MAYOR, CITY OF PITTSBURGH, PENNSYLVANIA

                STATEMENT OF JENNIFER GALLAGHER

    Ms. Gallagher. Well, good morning. Again my name is 
Jennifer Gallagher and I am the director of the Department of 
Public Service for the City of Columbus, Ohio.
    I would like to start my testimony today by thanking 
Chairman Latta, Vice Chairman Harper, Ranking Member Schakowsky 
who is unable to be with us, Chairman Walden, and Congressman 
Lujan, and all members of the subcommittee for providing me the 
opportunity to represent my city and the work we are doing on 
behalf of Smart Columbus, which is the term coined by our 
community upon winning the Smart City Challenge. For full 
details of our Smart Columbus Demonstration Project, please 
refer to the written testimony that was submitted to your 
committee.
    I appreciate the subcommittee's looking ahead of the curve 
of disruptive technologies, and I am delighted to have the 
opportunity to talk about what my community is doing with the 
collaborative support of our local governments, our research 
institutions, and our private sector. This hearing is hopefully 
part of many activities that will help disseminate what works 
and what doesn't work as communities address these same 
challenges.
    Keep the spotlight on Columbus. We want to make sure that 
lessons learned in Columbus can empower cost effective, 
technology enabled solutions across the country, and hopefully 
inform public policy decisions going into the next decade. 
Mayor Ginther's vision for Columbus is shared prosperity for 
all residents. He is working to make the City of Columbus 
America's Opportunity City. In the mayor's vision, Columbus 
will be the place where you are more likely to move to the 
middle class and beyond than anywhere else in the Nation.
    We believe access to transportation is a key component of 
turning this vision into reality. Our application for the U.S. 
Department of Transportation's Smart City Challenge focused not 
on how to move people from point A to point B, but how to move 
people to ladders of opportunity. We believe our focus on 
opportunity was our key to success in light of rigorous 
competition from 77 other great American cities.
    This Federal grant has changed our city. Cities in the 
competition, including some represented on the panel, 
challenged themselves to push for innovation and sustainable 
solutions in transportation and energy sectors. Throughout the 
process, the competing cities learned from one another and we 
continue to do that today.
    I am encouraged that the Congress and the President have 
been talking about infrastructure. For urban areas, the key to 
continued growth in the future isn't just about building new 
highways or adding more lanes to the highways we have, we want 
to make sure that the discussion provides flexibility and 
options for disruptive technologies in the cities that want to 
move in that direction.
    Today, Columbus has about 850,000 people. Some estimates 
have our region growing to three million people by 2050. With 
this growth we have to be smart in order to be sustainable, 
which is why what we are doing in Columbus is so important to 
the future of mobility. What we learn and put into action over 
the next few years won't just change transportation in 
Columbus, it will be adaptable and scalable to cities around 
the country and around the world.
    We have learned that technology, indeed disruptive 
technology, is an enabler, but not an end-all for us to 
accomplish our goals. As this demonstration project comes to 
fruition, we look forward to reporting to you and your 
colleagues on lessons learned and our suggestions for best 
practices and not best practices moving forward. As your 
committee considers the development of new standards as these 
technologies emerge, the City of Columbus looks forward to 
providing you information on our experience and best practices 
to better inform you on your decision making process.
    Mr. Chairman and other members of the subcommittee, thank 
you for your time this morning. I am happy to answer any 
questions now and in the future.
    [The prepared statement of Ms. Gallagher follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Gallagher. And we do have a video that we showed during 
our presentation for the Smart City Challenge, if I may show 
that now.
    [Video shown.]
    Mr. Latta. Well, thank you very much. And the Chair now 
recognizes for 5 minutes Mr. Chisek for your opening statement. 
Thank you very much.

                    STATEMENT OF KYLE CHISEK

    Mr. Chisek. Thank you. Good morning. My name is Kyle 
Chisek, and I serve as the director of Bureau Relations in the 
office of Mayor Ted Wheeler. Previous to my role with Mayor 
Wheeler, I was the project manager for the City of Portland on 
the Smart City Challenge grant application to the U.S. DOT. The 
City of Portland appreciates the opportunity to provide 
feedback to the House Committee on Energy and Commerce as a 
part of the Smart Communities Disrupter Series.
    Portland has been a national leader in Smart City policies 
specifically as they relate to utilizing innovative technology, 
improving public health, and supporting energy efficiency. We 
support Congress' efforts to fund Smart City infrastructure 
investment and to better understand the challenges and 
opportunity facing our communities today.
    Infrastructure is more than just roads and bridges, and it 
includes technology to help make the transportation system 
function better. New technology, big data, innovative 
partnerships, they all have the ability to change our 
communities for the better, and in Portland these changes are 
already happening. Our government and agency partners, our 
Metro regional government, Multnomah County, the Oregon 
Department of Transportation, our Port of Portland, and TriMet 
are all crucial to delivering an innovative transportation 
system that allows citizens to access information and services 
quickly and easily.
    Whether it is the launch of America's first modern 
streetcar system or our first statewide road user charge, 
OreGo, or even our cutting edge academic research on Smart City 
policy, Oregon is trying to lead the way. Portland State 
University hosts the National Institute for Transportation and 
Communities. It is one of five U.S. DOT national university 
transportation centers and it links the study of transit and 
transportation, urban planning, housing, and computer science 
together.
    PSU's Business Accelerator has spawned the Smart City 
startups like Globe Sherpa which is now called Moovel. PSU is 
also working to design and implement an open data cloud, 
building on a history of open data and development of open data 
standards in the Portland region. Portland was one of the first 
cities to adopt an open data resolution that created an open 
data portal, CivicApps, back in 2009.
    Portland's regional public transit agency, TriMet, has 
partnered with Google in 2005 to develop a standard for how 
real time transit schedule information is structured. This 
standard, the General Transit Feed Specifications, is now used 
by transit agencies around the world allowing software 
developers to build transit apps that work consistently across 
jurisdictional boundaries.
    In 2016, TriMet was also awarded the Mobility on Demand 
Sandbox grant from the Federal Transit Administration. This 
grant will allow Portland to build on the success of its Hop 
Fastpass ticketing system to incorporate multimodal and shared 
use mobility options into its trip planning. So basically this 
is the goal of allowing Americans to plan, book, and pay for 
car sharing, bike sharing, public transit, and all from one 
single application. In fact, it was a common theme through all 
of the final cities on the Smart City Challenge to be able to 
do this, so we are very happy to be moving forward on that.
    Smart cities must also be safe cities, so Portland is 
committed to safety through its Vision Zero policy. This policy 
has been adopted by other American cities and States that no 
loss of life is acceptable on public streets and that 
government has an affirmative obligation to eliminate traffic 
related fatalities and serious injuries. So we are very 
committed to using Smart City technology to achieve this goal, 
whether it is deploying speed cameras, gaining data at 
intersections so the city can address safety issues before 
crashes occur, or ensuring autonomous or automated vehicles 
increase safety rather than pose a hazard to our citizens.
    There is huge benefits for safety with autonomous vehicles. 
Ensuring access to opportunity and allowing our transportation 
network to enhance social mobility is also a key. 
Transportation is a key to employment and that was one of the 
focuses in our Smart City Challenge grant application.
    Lastly, public-private partnerships provide cities with the 
alternative and innovative project delivery options. So it is 
not a replacement for Federal funds, but it is something that 
can help cities be able to deliver projects better, faster, and 
quicker. These partners can help fund new infrastructure, and 
my current boss, Mayor Wheeler, when he was State treasurer, 
helped create the West Coast Infrastructure Exchange to 
facilitate these partnerships. He tried to pioneer them and we 
have a history of doing so.
    In conclusion, with increased Federal investment related to 
Smart City initiatives, the Federal Government will realize 
significant returns on its investments in the form of energy 
efficiency gain and leveraging land use patterns to create 
vibrant cities and strong economic growth. In addition, by 
testing these in cities, rural communities can benefit from our 
lessons learned and our mistakes made. Thank you.
    [The prepared statement of Mr. Chisek follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you for your testimony today. And Ms. 
Berman, you are recognized for 5 minutes for your opening 
statement. Thank you very much for being here.

                   STATEMENT OF BRENNA BERMAN

    Ms. Berman. Thank you, Chairman Latta, Ranking Member 
Schakowsky who could not be with us here today, and members of 
the committee, for inviting me to speak today about smart 
cities. My name is Brenna Berman and I serve as the 
commissioner for Chicago's Department of Innovation and 
Technology and CIO for the City.
    Chicago, as you know, is the third largest city in the 
country, a global city with world class architecture, 
universities, and cultural institutions. As one of the most 
dynamic cities in the world, we seek to equip our communities 
with leading edge technology that engages, informs, and 
empowers. Mayor Emanuel's vision for achieving this is built on 
a commitment to modern infrastructure, smart communities, and 
technological innovation.
    In Chicago we have applied Smart City tools like open data, 
predictive analytics, and sensor technology to public health, 
public safety, and improving our environment, among other 
public challenges. These tools have helped us to become more 
responsive to our community, faster and more efficient in our 
service delivery, and smarter about our investments and 
policies. Step one for us in becoming a Smart City was 
examining and changing the way that we collect, share, and use 
data.
    In 2011, Mayor Emanuel launched the city's first-ever open 
data portal, providing hundreds of city datasets to the public 
for the first time ranging from business licenses to conditions 
of our beaches to the largest crime dataset available in the 
world. One million people visit the data portal annually. These 
students, journalists, professors, and programmers use the more 
than 600 datasets available to increase their understanding of 
the city and produce apps that are useful for others.
    We also took a closer look at how we in the city could 
better use the data we collect to drive decisions or predict 
issues. We began applying predictive analytics to help the city 
run more efficiently and effectively. For example, we have been 
able to devise algorithms to help our Public Health Department 
forecast food inspection violations 7 days sooner than without 
the use of data which helps them address threats to public 
health more quickly.
    We have applied predictive analytics to things like rodent 
baiting, E. coli levels in Lake Michigan, and West Nile virus 
across the city, just to name a few. But now, data is moving 
outside of the IT department to become embedded into the 
physical infrastructure of the city, helping to function in 
unprecedented new levels of efficiency and effectiveness. This 
is what everyone means when they talk about the internet of 
things, new data being collected automatically through sensors 
telling us what might come next, truly becoming a Smart City, 
and that for us requires partners.
    Chicago is home to some of the leading universities and 
research institutions in the country, as well as Fortune 500 
companies and innovative startups. In 2015, UI Labs, a 
consortium of Chicago research institutions and corporations, 
launched a Smart City accelerator called City Digital to 
harness the collective energies of more than 300 organizations 
to apply cutting edge technology and integrated data solutions 
to urban infrastructure challenges in Chicago.
    With our City Digital partners we can tackle bigger 
problems like storm management and flooding. While data can 
tell us what areas in the city are likely to flood, with our 
partners and new technology we can actually do something about 
it. For example, recently we combined green infrastructure 
solutions such as water-retaining plants with sensors and a 
secure network to actually collect data about their 
effectiveness and apply a dashboard for the Water Department to 
manage these solutions. That allows the city to easily see the 
impact of the solution and make better investment decisions in 
the future.
    Chicago is also committed to efforts that merge our built 
environment with our digital environment. Right now we are 
doing this through two projects: the largest Smart Lighting 
Project so far in the country, and the Array of Things. The 
Smart Lighting Project will install new LED lights across the 
city. Not only are these lights more energy efficient, but they 
will communicate with each other and city systems.
    When a streetlight goes out we won't have to rely on a 
neighbor reporting it, the streetlight itself will alert 
relevant city departments. We know that simple streetlight 
outages are associated with small spikes in crime. Being able 
to respond quickly addresses the need to be able to fix the 
light and improves public safety.
    With funding from the National Science Foundation we are 
working with the University of Chicago and Argonne National 
Laboratory on the Array of Things, a first of a kind urban 
sensing project that consists of a network of interactive, 
modular sensor boxes installed around the city essentially 
serving as a fitness tracker to collect real time data on 
Chicago's environment, infrastructure, and activity for 
research and public use.
    The data generated by the Array of Things will help 
anticipate floods, traffic safety incidents, and improve air 
quality. With its data being made open to the public, the 
initiative supports researchers, policy makers, developers, and 
residents alike to work together and take specific actions that 
will make Chicago healthier and more liveable. These 
initiatives from those at City Digital to the Array of Things, 
all fall under Chicago's bold and comprehensive vision for 
being a Smart City. That vision is guided by informed, data-
driven decision making, and a collaborative, inclusive process 
for fostering and promoting innovation.
    Indeed, while technology is evolving far more quickly than 
ever before, the principles of efficiency, sustainability, and 
a better quality of life for all of our residents still ring 
true. The city is committed to collaborative urban innovation 
and to share its insights with the world so that we may all 
grow together in this process. Thank you very much.
    Mr. Latta. And again, thank you very much for your 
testimony today. And the committee now recognizes Mr. 
Gruendling for 5 minutes. Good morning.

                  STATEMENT OF KURT GRUENDLING

    Mr. Gruendling. Good morning, Chairman Latta, Ranking 
Member Schakowsky, Congressman Welch, and members of the 
subcommittee. Thank you for the opportunity to testify today on 
Smart Communities. I am here on behalf of Waitsfield and 
Champlain Valley Telecom and NTCA, the rural broadband 
association which represents about 850 small, rural telecom 
providers in the U.S.
    As many of the subcommittee members are aware because small 
telcos serve your districts, we provide broadband and other 
advanced services to the most rural areas of our country. 
Broadband helps solve the problem of distance by opening up new 
education and job opportunities for rural Americans, allowing 
them to telecommute remotely to companies in urban areas while 
helping rural businesses tap into global markets, enabling 
countless possibilities for commerce.
    Broadband connects rural veterans and others with 
healthcare specialists and helps farmers and ranchers use the 
internet to analyze livestock and crop data. It also provides a 
convenient means of maintaining strong social connections with 
friends and relatives, no matter how far away they may be. And 
when people want to escape the city for a change of scenery and 
some R&R, broadband is the driver of the tourism economy 
helping to connect to the ski resorts of rural Vermont and 
countless other tourist destinations in your home areas.
    While Vermont might be best known for its picturesque 
landscape, world class skiing, and quaint inns, look deeper and 
you will find a vibrant high-tech business community served by 
a state-of-the-art telecommunications network that continue to 
evolve. In our service territory, all schools, many of the 
larger businesses, and some residential customers are now 
served by fiber-to-the-home technology offering speeds up to 1 
gigabit.
    Vitality of any community is dependent on its access to 
robust economic opportunities, first-rate health care, 
education, and public safety services. Rural communities in 
particular face unique challenges to accessing these types of 
benefits. Smart Rural Community is an initiative of NTCA and 
for most of the development and deployment of broadband-enabled 
applications that the community can leverage to improve these 
vital services.
    Smart Rural Community recognizes that broadband access is 
foundational to community success, but it is just one part of 
the equation. These communities understand the importance of 
embracing and relying upon dedicated local leaders and from 
many fields and industries who work collaboratively to develop 
broadband-enabled solutions to create and improve opportunities 
in rural America.
    Since 2013, 44 NTCA members have been recognized with the 
Smart Rural Community Showcase Award for demonstrating 
excellence in collaborating with other local leaders to improve 
broadband-enabled services. My company earned this award in 
2014 for working with government and business leaders in the 
Mad River Valley.
    After Hurricane Irene hit Vermont hard in September of 
2012, the State sought to relocate more than a hundred 
employees that worked in the flooded State office complex in 
Waterbury, Vermont, to a vacant space in the Mad River Valley 
Business Park. Our company worked closely with State and local 
economic development officials to quickly wire the building 
with fiber optics and deploy a state-of-the-art phone system to 
meet their needs so they could quickly relocate to their new 
office.
    In 2015, our company also secured a Smart Rural Community 
Collaboration Challenge Grant which matched community funding 
to provide free Wi-Fi coverage to over a hundred local 
businesses in tourist areas.
    There are many great success stories from the Smart Rural 
Community initiative. NTCA companies have deployed connected 
health cards in public schools whose students are challenged by 
persistent poverty. They have worked with the U.S. border 
control officials to support critical security functions along 
our Nation's southern border, and they have enabled local 
firefighters to view reported fires and locate nearby hydrants 
before firefighting teams arrive.
    To not have access to high-speed internet today should be 
unimaginable, yet millions of rural Americans have limited or 
even no access to robust broadband. Smart Rural Community 
depends upon a mix of private entrepreneurship, public and 
private capital, and universal service programs. These 
resources enable not only network deployment, but also the 
ability to ensure that the services provided over those 
networks remain robust and affordable and can be upgraded over 
time.
    We have made great progress in deploying broadband, but we 
still have many locations to reach and upgrade and sustaining 
such progress is a separate challenge. Recent reforms to the 
Universal Service High Cost Fund have unfortunately resulted in 
a budget shortfall that will result in fewer locations being 
reached, comparatively slower speeds being delivered to 
locations that are being reached, and higher rural consumer 
broadband rates.
    This budget shortfall hurts small businesses like ours that 
still need to upgrade portions of our network, and it 
undermines the ability of those companies to deliver and keep 
delivering on the promise of broadband that create smart rural 
communities.
    In conclusion, rural telcos have made great progress and 
are eager to continue deploying infrastructure and delivering 
services that rural America and, frankly, all of America needs 
to participate in the global economy. The Smart Rural Community 
initiative highlights what is possible when consumers, 
businesses, and other organizations work together to make that 
a reality. Thank you for the opportunity to testify and I look 
forward to your questions.
    [The prepared statement of Mr. Gruendling follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. And thank you very much for your testimony this 
morning. And the Chair now recognizes for 5 minutes for your 
statement, Dr. Clark. Thanks for being here.

                  STATEMENT OF JENNIFER CLARK

    Dr. Clark. Good morning and thank you. My name is Jennifer 
Clark. I am an associate professor of Public Policy at the 
Georgia Institute of Technology and the director of Georgia 
Tech's Center for Urban Innovation. I would like to begin by 
thanking Chairman Latta, and also thanking the members of the 
subcommittee for making this opportunity available to us to 
testify to you today.
    Smart communities are critical to the future economic 
competitiveness of the U.S. Over 90 percent of the country's 
GDP is generated in metropolitan economies that is cities and 
their suburbs. Smart communities are not just an opportunity to 
increase economic growth and opportunity, but they present a 
challenge as well: Does the U.S. invest in intelligent 
infrastructure to build the 21st century economy and plan for 
what is beyond? Or does the U.S. miss the moment when targeted 
investments and integrating information and communications 
technologies into infrastructure systems could form the 
foundation of an industry 4.0 level cyber-physical system?
    The economic opportunity presented by smart communities is 
threefold. First, the data produced by intelligent 
infrastructure promises to increase the reliability of local 
government services and performance of infrastructure systems. 
The data paves the way for building interoperable and cross-
platform systems that build efficiencies and ultimately allow 
localities to provide higher quality services at a lower cost. 
The result is the opportunity to expand services and maintain 
more reliable and efficient systems ranging from waste 
management to transportation.
    The second opportunity is that smart communities' data 
systems can enhance and inform the strategic planning 
capacities of local communities, large and small, with real 
world data on how infrastructure systems are used by citizens 
and businesses and how that infrastructure is performing in 
real time. Further, the sharing of data amongst smart 
communities partners and participants helps to build networks 
for diffusing policy strategies and technology models.
    These strategic partnerships form the foundation for the 
third economic opportunity that flows from smart communities: 
entrepreneurship and market leadership. The data generated by 
and for smart communities systems and the systems that produce 
that data form the foundation of new enterprises and new 
products and services and as a consequence function as 
platforms for further economic development.
    The making of smart communities follows a model of 
technology diffusion familiar in the private sector context. 
This, however, is technology diffusion in the public sector 
context where there is a necessary focus on the broad 
provisioning of reliable and efficient services and a 
consideration for building access to data for enterprise 
development.
    In the U.S., the national innovation system largely relies 
on publicly funded basic research and development conducted 
within the network of world class research universities and 
national labs throughout the country. For decades, these 
universities and national labs have served as the research and 
development backbone of U.S. industry as well as of national 
defense.
    Research universities have extensive experience partnering 
with industry and government on technology diffusion projects. 
Research universities are built to test new technologies, 
evaluate alternatives, assess investments, evaluate economic 
impacts, measure distributional consequences, and certify 
processes, materials, products, and standards. As with any new 
enabling technology, research universities can play a role as a 
neutral third party with specialized technical expertise.
    Universities also are embedded in local communities and 
often have long term working relationships with local and State 
governments. Research universities also have vested interests 
in upgrading and maintenance of intelligent infrastructure in 
the cities and communities in which they are located. World 
class industry partners, star scientists, and the next 
generation of entrepreneurs all look for intelligent 
infrastructure to support their research and commercial 
enterprises. The absence of this infrastructure makes 
universities less globally competitive for talent and for 
capital, and as stated before such absences make local 
communities less globally competitive as well.
    There is a significant amount of research required to move 
smart communities' technologies from design to development to 
deployment. There is a growing need for education and training. 
In research universities like Georgia Tech, we are developing 
new curriculum to integrate teaching and learning about 
innovation and communities, technology and cities and regions.
    We are also investing in research centers like the Center 
for Urban Innovation and the Institute for People and 
Technology that take an interdisciplinary approach to moving 
innovations in engineering, sciences, and computing into a 
complex real world context of communities, entrepreneurs, and 
industries. How to design and deploy intelligent infrastructure 
to efficiently and effectively support smart communities is one 
of the central questions going forward for the country as a 
whole and for local communities in specific.
    Building the replicable models and dissemination networks 
for the broad and sustained implementation of information and 
communication technologies into the next generation of national 
infrastructure is the opportunity and the challenge before us.
    [The prepared statement of Dr. Clark follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Dr. Clark, thank you very much for your 
testimony this morning, and Mr. Pazuchanics, you are recognized 
for 5 minutes. Thanks for being here.

               STATEMENT OF ALEXANDER PAZUCHANICS

    Mr. Pazuchanics. Thank you, Chairman Latta, acting Ranking 
Member Lujan, all members of the House Energy and Commerce 
Subcommittee on Digital Commerce and Consumer Protection. On 
behalf of Mayor William Peduto and the City of Pittsburgh, I 
want to start by thanking you for the opportunity to speak with 
you today about Pittsburgh's emergence as a smart community. It 
is a pleasure to be here.
    The City of Pittsburgh is a resilient city. Investments 
that were made by philanthropists and industrialists decades 
ago have helped to position the city to be on the leading edge 
of revolutions in health care, technology, and advanced 
manufacturing. A high quality of life and low cost of living 
attracts new residents from across the country and around the 
world. For the first time in a long time, we are managing 
growth instead of managing decline. Given this new opportunity, 
the City of Pittsburgh is attempting to reshape the way that 
residents interact with our local government.
    An initial challenge of our Smart City work has been 
defining what it means to Pittsburgh. During the U.S. DOT Smart 
City Challenge, the definition was provided to us through the 
twelve Beyond Traffic vision elements including urban 
automation, connected vehicles, and sensor-based 
infrastructure. While these applications are vital to the city 
of the future, they are not goals in and of themselves.
    The city has been building a three-part framework for smart 
cities, collaboratively using technology to measurable improve 
the quality of life of our residents and visitors, building a 
data utility for government, industry, and citizens to use, and 
preparing our systems and our residents for future disruption.
    Our Smart City initiatives start with a simple question: 
what is the challenge we are trying to solve? Instead of 
letting the latest and greatest technology drive our decisions, 
we are oriented around real world problem solving. For example, 
the city has partnered on a number of projects with the 
Traffic21, Metro21, and newly created Mobility21 institutes at 
Carnegie Mellon University to use academic research to solve 
real issues in traffic management, infrastructure preservation, 
and transportation safety.
    An example of a successful implementation of this method 
can be seen in the city's SURTRAC development. SURTRAC was 
designed by robotics researchers at Carnegie Mellon to solve 
system inefficiencies that occur as a result of fixed traffic 
signal timing. By detecting the volume of traffic at an 
intersection and providing that information to other signals in 
the network, the adaptive signals are able to provide more 
efficient light timings, reduce travel times and stops for 
vehicles. Future applications include additional capabilities 
to minimize not just vehicular delay, but also pedestrian wait 
times and using vehicle-to-infrastructure communications to 
optimize the flow of heavily occupied mass transit vehicles.
    The second pillar of the Smart City strategy is a data 
infrastructure that allows for the city to operate more 
efficiently and to allow the public and private sectors to 
build on top of our resources. In much the same way that our 
electric grid, water systems, and roadways and bridges allowed 
for Pittsburgh's success in the 20th century, our Data Utility 
will advance Pittsburgh into the 21st.
    We have been laying the technical groundwork on this work 
for several years. The city, county and University of 
Pittsburgh are partners in the Western Pennsylvania Regional 
Data Center, a regional effort to make public non-sensitive 
municipal data. For Pittsburgh, this collaborative structure 
has been a tremendous success and has brought a number of 
outside partners to the table to publish their own datasets.
    Over 150 datasets provided by local government, public 
agencies, university partners, and nonprofit organizations help 
citizens engage with the communities they call home. Trainings, 
hackathons, and partnerships with local libraries are producing 
a vibrant ecosystem of civic tech that engages with us, 
creating a feedback loop.
    The final pillar of Pittsburgh's Smart City strategy is the 
need to build a policy and planning framework around the 
considerable disruption technology is going to continue to play 
in the way that we deliver services to residents. Many of the 
innovations in the Smart City space are in the private sector. 
Some of them, such as autonomous vehicles and transportation 
network companies, rely on access to public right of way for 
their business models to work, and an appropriate and even-
handed framework that balances safety with innovation is 
required for the good of our residents.
    Pittsburgh's strong working relationship with the 
Pennsylvania Department of Transportation and our recent 
designation as an Autonomous Vehicle Proving Ground will allow 
us to continue to represent these concerns of our residents on 
the subject.
    The potential for autonomous, connected, electric, and 
shared vehicles pose significant uncertainty for cities. For 
example, the City of Pittsburgh receives nearly 15 percent of 
its general fund revenue from parking tax, a source that could 
be reduced as a result of autonomous vehicles. Likewise, 
changes in parking demand have significant effects on the 
financing of public garages and parking minimums for 
development. And perhaps most importantly, technological 
development will create disruptions in employment for the 
transportation and logistics industry, requiring thought on the 
future of work and the pathways to advance manufacturing, 
cybersecurity, and data science jobs of the future.
    The City of Pittsburgh is approaching our Smart City 
deployments by keeping these three concepts in mind. We are 
trying to harness the promise of new technology to benefit our 
residents first. We believe these initiatives and others that 
will come can improve the quality of life of residents by 
improving safety, reliability, efficiency, and resiliency of 
our networks. Slowly but surely, we are making the investments 
and finding the partnerships to advance those goals. Thank you.
    [The prepared statement of Mr. Pazuchanics follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much for your testimony, and 
thank you again, all of our witnesses, for the testimony today. 
And that will conclude the testimony from our witnesses, and we 
will go into questions from the committee. And I will start off 
with my questions this morning and this is actually for all of 
the panel and if you could all maybe give a brief answer.
    Safety is regularly mentioned as a benefit of improving 
local transportation, infrastructure, energy delivery, and 
health care including emergency services. What improvements in 
safety have your communities experienced or are trying to 
achieve with your smart communities initiatives?
    And Ms. Gallagher, if we could start with Columbus.
    Ms. Gallagher. Chairman Latta, thank you for the question. 
I think on the side of safety for us, we all, most of us here 
know that 37,000 deaths occur on our Nation's freeways every 
year, so if you do the quick math that is over a hundred a day. 
That is unacceptable, and anything we can do to fix that is 
obviously a positive.
    So one of those things are just making cars safer in taking 
the human element out of it. The second is giving people other 
options and opportunities to perhaps not have to drive that car 
themselves. So with our Smart Columbus program, a few of the 
things that we are doing on the quick end is putting Mobileye 
on all of the buses in Columbus, where the Mobileye will scan 
as buses are going up and down the streets and check for 
pedestrians, bicyclists, other things that maybe you can't see 
in a COTA bus, all the way to towards the end our demonstration 
period, the autonomous vehicles, and taking that human error 
out of the driving experience and all things in between.
    Mr. Latta. Thank you. Mr. Chisek?
    Mr. Chisek. Well, in Portland, one of the things we are 
looking at, and I alluded to it in my opening statement, was 
focusing on intersections where we know we have problems and 
finding out about problems before they result in crashes and 
fatalities.
    So in east Portland you are about three times as more 
likely to die in a fatal crash than anywhere else in the city, 
but by focusing on these high crash locations or corridors 
where we know we have a lot of crashes, with video 
infrastructure, with other sensors to gather data, we can track 
near misses and that can tell us ahead of time that oh, there 
are a lot of near misses with pedestrians and vehicles or 
bicyclists and vehicles at particular locations, and we can 
then use our civil engineering groups to create a fix for that 
before anybody gets seriously injured or killed since we would 
have the data on that. So that is one of the things we are 
looking at.
    Mr. Latta. Thank you. Ms. Berman?
    Ms. Berman. So we are actually doing something similar to 
Portland because we are part of the Vision Zero project as 
well. One of the key roles of the Array of Things is to focus 
on intersection safety. There is a lot of data about actual 
accidents but there is very little data today about those near 
misses. And the Array of Things is calibrated to calculate 
those data, or to calculate data around near misses without 
actual need of the civil engineers, so it actually creates 
those calculations so that we can understand better those near 
misses.
    We also actually are using safety cameras across the city 
to provide safety data and analytics to our police department 
to help them better understand what is going on across the city 
to create better safety situations as well.
    Mr. Latta. Thank you. Mr. Gruendling?
    Mr. Gruendling. So I come at it from the service provider 
side, so you know we have worked obviously with local and State 
officials to connect cameras to view road conditions real time. 
This is certainly very relevant with the snowstorm that we just 
experienced. You know, when I left Burlington I saw that it was 
29.9 inches of snow and over 40 in the mountains.
    So there is different locations throughout the State that 
are set up, including one that we service with fiber optics up 
on Route 17 that allows people to check real time to see what 
the road conditions are, and you know that they can deploy 
resources, snow plows, whatever, using that technology in 
addition to having all the snow plows now GPS-enabled to see, 
you know, on a map what has been plowed, where additional 
resources are needed, et cetera.
    Mr. Latta. Thank you. Dr. Clark?
    Dr. Clark. I can speak to this from the research that we 
are doing in collaboration with the City of Atlanta. And one of 
the research projects that we have just started has to do with 
working with the Safe Routes to School program, which is an 
existing program, and working with having young people use 
sensors to help crowdsource, get crowdsource with the 
information about what the safest route back and forth to 
school really is for them and their families. And so we can 
actually then take that information and make recommendations 
about where improvements to intersections, improvements to 
sidewalks can also be made.
    We also are doing that with bicycle routes so that we are 
crowdsourcing bicycle routes, so users who are actually telling 
us, using an app, what the safest routes are, what the more 
dangerous routes are, and then that information can be fed back 
to the city in order to make specific infrastructure investment 
to mitigate those problems.
    Mr. Latta. Thank you. Mr. Pazuchanics?
    Mr. Pazuchanics. One of the new projects that we are quite 
excited about is a Smart Belt Coalition of the Departments of 
Transportation and Turnpike Commissions of Ohio, Michigan, and 
Pennsylvania. And one of the projects associated with that is 
to be able to allow for truck platooning among the major 
interstate corridors of those three States which promotes not 
just efficiency in the freight system, but also safety 
delivery, having the vehicles communicate with one another to 
maintain and safe and healthy distance while being able to move 
at a speed faster than the humans would be able to provide in 
and of themselves.
    Mr. Latta. Well, thank you very much, and my time has 
expired. And the Chair recognizes the gentleman from New Mexico 
for 5 minutes.
    Mr. Lujan. Thank you, Mr. Chairman. Two questions for the 
panel: what should the Federal Government do to assist in 
development to smart communities? And what have been some of 
the challenges--maybe three questions. What have been some of 
the challenges that you have identified with the Federal 
Government? For example, Mr. Chisek, in your testimony you 
talked about the challenges of being able to access different 
funds because of, you know, telecom energy versus something 
else, and the ability to be able to combine those funds to be 
able to deploy a project.
    And then I would say the final question is what thoughts do 
you have with access to existing infrastructure; has that been 
a critical component to being able to deploy your assets or 
resources from a Smart City perspective, and specifically pole 
location on light poles or electrical power lines, existing 
buildings or infrastructure that are owned by the city, as we 
talked about even the deployment of 5G now which will present 
more opportunities with smart cities as well?
    Ms. Gallagher?
    Ms. Gallagher. Thank you for the questions. As far as roles 
for Federal or State Government, from our point of view it 
would be helping define those regulations, those policies, 
those standards as we move forward into this uncharted 
territory, but yet allowing enough flexibility for locals to 
use those to be able to solve the problems they are seeing in 
their communities.
    Second question was risk challenges with the Federal 
Government. I think probably the same thing on just trying to 
move as quickly as the changes and the technology in the 
private side is moving and to try to get that legislation, that 
funding in place to try to keep up with those. It is a 
challenge at all levels of government.
    And then thirdly, as far as infrastructure, and you know we 
are having some of those dialogues right now in Ohio with some 
of the utility providers, as far as who has what rights and 
priorities on and poles and infrastructure and so forth. So 
that is going to continue to be a challenge as we move forward 
because there is such a need for that infrastructure and those 
are conversations that we are going to continue to have, but I 
think are very, very important.
    Mr. Lujan. Anything to add, Mr. Chisek?
    Mr. Chisek. Thank you. So I will address the middle 
question first which was some of the challenges with the 
Federal Government. I think different agencies have different 
wants and needs and so the city definitely would, like I said 
when things are more aligned between the different agencies so 
we can address it directly rather than in different ways. We 
also understand that on some of the procurement side of things 
that the rules and regulations are different for different 
agencies we are interacting with, so again moving that to that 
common alignment and trying to problem solve and be more 
innovative on how we move these things forward.
    I think as far as challenges and co-location, we are 
working with a consortium of private companies and our electric 
utility on deploying smart sensor technology on our light 
poles. You know, it does get complicated, but we have good 
partnerships with these private industries so we are able to 
work things out. Our private electric utility owns the poles. 
We own the little arm that comes off of the poles, so we have 
for a long time have had the ability to work through these 
issues with them. We are doing the same thing with them on 
electric vehicle charging stations located in our right of way 
but owned and maintained by our private electric utility.
    Mr. Lujan. And as we go to Ms. Berman, for the other 
witnesses I may not be able to get to I will submit that in 
writing as well and to get your thoughts in that particular 
area. Ms. Berman?
    Ms. Berman. I will try to be very brief. Two supportive 
roles I think the Federal Government could play, one would be 
around coordination between the cities. We are all working on 
very similar problems. You saw one example just a minute ago 
where we are doing something really similar. The other would be 
there is a very strong focus on pilots, which is excellent. The 
challenges do change when you go from a successful pilot to 
scaling for an entire city and oftentimes the Federal support 
whether it be a grant or a challenge falls off from pilot to 
full scale, and so it would be very helpful to see the focus on 
helping projects go from that pilot to scaling the solution.
    Mr. Lujan. Do you think there would be, and that is based 
from a scaling perspective, maybe collaborative efforts even 
with our national labs?
    Ms. Berman. Yes. And that is the goal of the Array of 
Things, actually, is we are scaling a solution citywide there 
and it is going to multiple cities. So yes, the role of 
partnering with the national labs is very helpful, absolutely.
    Mr. Lujan. Thank you. And with that Mr. Chairman, I yield 
back.
    Mr. Latta. Thank you. The gentleman yields back. The Chair 
now recognizes the vice chairman of the subcommittee, the 
gentleman from Mississippi, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman, and thanks again to 
each of you for being here. And you know the technologies and 
the things that we are seeing already are just, you know, we 
couldn't even have really pictured this 20 years ago or even 10 
years ago, and who knows what we are going to see as this is 
developed over the next number of years. So I really appreciate 
your testimony and your insight into what is going as we want 
to make sure that government is not in the way of innovation. 
You know, it seems sometimes regulations get a little bit 
behind that curve that we want to make sure we give folks the 
ability to be innovative and to come up with these things that 
are there.
    You know, I certainly have an interest in the fact that I 
have an adult son with special needs who cannot drive. He 
works. He graduated from a special program called the ACCESS 
Program at Mississippi State University, one of the first two 
students to graduate from there almost 3 years ago. He has done 
a lot of stuff. But as we look at self-driving cars and things 
like that that could really help those in the disability 
community, you see some potential that we haven't seen before 
so we are excited about that.
    And Dr. Clark, if I could ask you some questions. Of course 
our hearing is called, you know, Smart Communities. Do you see 
opportunities for smaller and rural communities to leverage 
these technologies that other cities on the panel have 
discussed, and also how are traditionally underserved 
communities, including those that are disabled, able to benefit 
from these technologies?
    Dr. Clark. Thank you very much for the question because I 
do feel like this is something we need to focus on is how to 
make that work. Yes, I mean the short answer is yes, I see 
those opportunities. I have some concerns about how those 
opportunities are going to appear. I think we need to plan for 
them.
    One of the things that has been happening in the policy 
diffusion or the technology diffusion for smart cities rather 
than smart communities in recent years is that for larger 
cities vendors have been coming to larger cities and they have 
been saying we will give you this in kind so we can work out 
this technology in your city. You don't have to pay us for it, 
we are going to work it out here. Well, the smaller communities 
are not going to get that opportunity. They are going to get a 
price tag on the technology.
    And I think this is one of the real challenges is that what 
is going to end up happening is a very uneven distribution of 
who has the high-tech technologies built into their 
infrastructure system and who doesn't. And so I think it 
absolutely is important for smaller and rural communities to be 
seen as an important part of this story, not as an add-on 
later, and also recognizing the fact that they don't have the 
tax base to pay the same prices.
    One of the most interesting, and I will try to make this 
brief, but one of the most interesting conversations I had 
recently was I was making a presentation with my colleague from 
the City of Atlanta to the mayors of the region and you know we 
have 23 different counties in the Atlanta region, it is a huge 
region. And the mayors came up to us afterwards and they said, 
so how do we become part of the smart communities partnership, 
how do we get access to this technology?
    And I thought, I am overwhelmed. I don't know. I don't have 
a program to direct you to, I don't have a funding source to 
direct you to, all I can tell you is that we know we need to do 
this, but I can't give them an answer to when.
    Mr. Harper. Talk to me then for a minute about those that 
have disabilities, whether they are physical or, you know, we 
deal a lot with those with intellectual disabilities, so how do 
we incorporate that for them?
    Dr. Clark. Well, and I think this has a lot to do with the 
question of standards and thinking about digital inclusion 
instead of digital divide, right. And so one of the ideas is 
thinking about, and we have a number of researchers at my own 
institution who are working on trying to develop the 
technologies at the beginning so that they are actually someone 
who had limited eyesight or limited hearing actually could use 
the technology, because we don't build it for just people who 
can see in the first instance, instead of again, as I said, 
coming to that question later and saying oh, how do we retrofit 
this to be?
    We have the technologies to actually build these for quite 
a broad set of capabilities and opportunities, but we need to 
design that on the front end and that takes some consideration 
and planning.
    Mr. Harper. Sure. Well, thank you. And I would encourage 
each of you in your roles to look at how we can do that and 
make sure that there is not a catch-up; that it is a bring-
along as we go. And so with that I yield back.
    Mr. Latta. Well, thank you very much. The gentleman yields 
back. The Chair now recognizes the gentlelady from California 
for 5 minutes.
    Ms. Matsui. Thank you very much, Mr. Chairman, and I want 
to thank the witnesses. It has been wonderful hearing about 
what has been happening as far as smart cities and all the 
innovations that you have utilized. Now very exciting work is 
happening throughout all the communities across our country to 
harness the power of technology. In my home district of 
Sacramento we are also moving forward to embrace these 
opportunities. We are positioning ourselves as a test bed for, 
for instance, autonomous vehicles, and encouraging the 
development of electric vehicle infrastructure.
    The City of Sacramento hosts an open data platform which 
promotes transparency and invites civic innovators to create 
solutions at the local level. Sacramento was selected as one of 
the 16 cities to join a partnership with Transportation for 
America and Sidewalk Labs to pilot new programs and develop 
best practices for Smart City policies and projects.
    All this innovation will rely upon connectivity. This will 
place new demands not only on our roads and highways, but also 
on spectrum and infrastructure that powers wireless 
communications. The most important thing we can do is encourage 
smart communities is to accelerate the deployment of 5G 
networks. Verizon recently announced a pilot project to offer 
5G in Sacramento and ten other cities. I am glad that 
Sacramento residents will soon see some of the benefits of 
super high wireless networks and every American community 
deserves access to these world class networks.
    I am also looking at things like energy efficiency and air 
quality and I think some of you have brought this up. Cities 
already consume 75 percent of all energy used worldwide and 
urbanization is on the rise. These cities of the future as well 
as all smart communities will need to find innovative and 
sustainable ways to reduce their energy consumption. Energy 
efficient technology made possible by smart communities from 
smart grids to connected light bulbs have the potential to 
significantly benefit the environment and public health.
    Well, all of you who represent cities, what features of 
your smart systems have that enable your cities to use energy 
more efficiently and sustainably? Ms. Gallagher, start with 
you.
    Ms. Gallagher. Thank you, Congresswoman. So as part of the 
Smart City Challenge award that we received, $10 million of 
that came from the Vulcan foundation, and their entire goal is 
to reduce carbon emissions. So we are partnering with them on 
basically five different fronts. One is a smart grid which we 
are very fortunate in Columbus, Ohio, to have the American 
Electric Power Company headquartered there, so they are doing 
about a half-billion-dollar program for everything from smart 
meters up to helping us electrify homes for electric vehicles.
    We also, another component of that is fleet, changing our 
fleet over to electric vehicles. It is consumer adoption of 
electric vehicles. We are partnering with Columbus Power on 
many, many ranges for smart grid and we are also looking at 
just the charging infrastructure in general. So just very 
quickly those are just some of the highlights that we are 
hitting for the carbon emissions.
    Ms. Matsui. OK, thank you. Mr. Chisek?
    Mr. Chisek. Thank you. Through the Smart City Challenge, 
Portland was actually fairly far ahead on the electric side of 
things. We have been working for quite some time on smart 
meters. What we want to do is take it to the next level now and 
move more into, say, port operations and how can we gain 
efficiency there both with energy usage but also 
electrification of some of their infrastructure as well.
    Ms. Matsui. OK, thank you. Ms. Berman?
    Ms. Berman. So two things in Chicago, the first is our 
smart lighting project which will do an LED retrofit for 
420,000 streetlights which will be getting underway later this 
year, and then we have an active smart buildings program which 
for buildings that the city owns introduces building control 
systems for all the city owned buildings, and on the policy 
side encourages the adoption of similar systems for privately 
owned buildings across the city to shrink the energy 
consumption for our building stock.
    Ms. Matsui. Thank you. And Mr. Pazuchanics? Paz?
    Mr. Pazuchanics. Sure. Two projects, we, similar to the 
City of Chicago and a number of other cities, are also 
embarking on a streetlight conversion project for about 40,000 
lights, so a bit smaller but that project we expect to realize 
significant energy savings.
    The second piece is through system efficiency. As a result 
of the adaptive signal network that we are building we are 
seeing reductions in air quality emissions because the vehicles 
are spending less idle time in those corridors. Given our 
topography and the fact that you know everything in Pittsburgh 
sort of has to run through a valley in between mountains the 
particulate matter tends to concentrate, and so to the degree 
that we are able to move vehicles more efficiently and move 
mass transit more efficiently, we are seeing significant 
improvements in air quality in those corridors.
    Ms. Matsui. OK. Thank you very much. It looks like I have 
run out of time. Thank you. I yield back.
    Mr. Latta. Thank you very much. And now the gentleman from 
Indiana is recognized for 5 minutes.
    Mr. Bucshon. Well, first of all, thank you for being here. 
Thank you, Mr. Chairman. I don't know. I was in Shanghai a few 
years ago and all of a sudden at about a certain time of night 
all the lights went off in the entire city. Has anybody ever 
experienced that? I am not promoting that but I guess that is 
how they do energy efficiency. I mean, literally it looks like 
Vegas and then it is dark. It was the weirdest thing I ever 
seen in my life.
    I want to focus on kind of some practical things and I do 
want to talk about rural broadband, because my district is 
primarily rural. And I really consider rural broadband like the 
electricity or the telephone of our age and especially in rural 
communities, so what things can we do to get broadband to rural 
communities? I mean, other than money. I mean, obviously that 
is important, but there is probably other things too.
    Mr. Gruendling. Thank you for the question. Yes, I agree. I 
think rural connectivity is, you know, certainly a critical 
conversation we all need to have and certainly is a focus and 
you know it ties right in with economic development. I mean, 
some of the challenges we have as a local family-owned 
telecommunications carrier is really just some of the 
uncertainty in the recovery mechanisms you know going forward 
in terms of, you know, we are building the fiber optic network 
of the future but it takes time and it takes money, and in 
Vermont we have a limited construction season, right. We have a 
few months that we can actually put infrastructure in the 
ground and that is a challenge as well.
    But, you know, over the past couple of years at FCC, you 
know, we have seen reductions in our Universal Service funding, 
our access revenues, all at a time where we need to be stepping 
up our infrastructure investment in the fiber optic network of 
the future.
    Mr. Bucshon. Are there specific regulations that make it 
difficult and more costly to do these things?
    Mr. Gruendling. Permitting.
    Mr. Bucshon. OK, so permitting is, I am assuming it is 
slow?
    Mr. Gruendling. Absolutely.
    Mr. Bucshon. Yes. And who is that primarily from, what 
agencies?
    Mr. Gruendling. It is a mix of local, State, and Federal 
issues.
    Mr. Bucshon. OK.
    Mr. Gruendling. You know, including rights-of-way issues 
and certainly easements you know which can be challenging when 
dealing with local----
    Mr. Bucshon. Oh yes, I know.
    Mr. Gruendling [continuing]. Landowners. Especially, I 
mean, with fiber optics too, you know, we are putting more and 
more electronics out in the field with splitter cabinets and 
what not which require easements and you know it takes time.
    Mr. Bucshon. So it is a complicated problem, because I mean 
I have schools, you know, I mean, if kids can't get fast 
internet, you know, I mean, how can you have kids out in the 
rural communities learning when they--I literally have some 
people that almost essentially have dial-up. I mean they don't 
have access to the internet, so that is a big problem in our 
country.
    So what I would like to do is if there is any barriers at 
the Federal level, you know, we need to try to work on those to 
improve that. And I do think at some point, you know, I have 
talked to the big carriers also about this and at some point, 
you know, or I am hopeful that the private sector can solve 
most of these problems, but there may very well be, like I said 
it is like the telephone or electricity in my view.
    I want to focus on some other practical things. I was 
interested in what you said about your streetlights because--I 
went to med school in Chicago, by the way, University of 
Illinois. My son lives in River North, so I love Chicago.
    And one of the most frustrating things of any city, but 
Chicago is one of those, is when you are driving, you know, it 
is 10 o'clock at night and you see a ray of red lights and 
there is nobody coming from the other direction, right. And you 
are just sitting there idling and then you pass the one and it 
turns red on you again. What is happening in all of your cities 
where you can, you know, either pressure sensors or visual 
sensors or other ways to interact?
    The other one is late at night you are traveling through a 
city, and I am just using Chicago because I lived in Chicago, 
and you are driving along and you have a green light and all of 
a sudden out of the corner of your eye you see someone fly 
through the red light and you are like, whoa, because they just 
assume there is nobody coming. So that type of interaction I am 
interested in too, in technology, infrastructure, vehicle 
communication.
    And I will let you comment first and then take some 
comments from others about what they might be doing.
    Mr. Pazuchanics. Sure. So the adaptive signal network that 
we have tested about 60 intersections right now in the city and 
we have seen between 15 and 20 percent reductions in the wait 
times, the number of stops that vehicles are going through 
those corridors. You know obviously a lot of that benefit is 
realized at points that are not a.m. or p.m. peak, sort of the 
off-peak where the signal timing doesn't necessarily make 
sense.
    The city actually received an ATCMTD award from FHWA last 
year to expand that pilot to another about 150 intersections 
throughout the city. So I think we are really starting to see 
the potential for vehicle to infrastructure communication with 
those signals as well, not just----
    Mr. Bucshon. Is that computer modeling, or how is that?
    Mr. Pazuchanics. It is a combination of sort of computer 
modeling and then visualization of the intersection itself, so 
sort of blocking out vehicles as sort of blocks within the 
system and then the intersections themselves are talking to the 
next intersection down the line providing the information. And 
as I mentioned, you know, we are hopeful that we can then 
provide information about the load of a bus, how far behind 
schedule the bus is, factor all of that into whether the bus 
gets a green light or a red light.
    Mr. Bucshon. I am out of time so the other cities can't 
comment, but what I would like to say is there is a lot of 
things. It is not just inconvenience, right, and somebody 
pointed out idling time in cities and other areas that is 
leading to more emissions and other things that goes into that 
is a really important issue. So thank you, I yield back.
    Mr. Latta. Thank you. The gentleman yields back. The Chair 
now recognizes the gentlelady from New York for 5 minutes.
    Ms. Clarke. Thank you, Mr. Chairman, and I thank our 
panelists for their testimony here this morning. I want to 
switch gears just a bit and really focus in on cybersecurity, 
because of course we are in a time when you know just with some 
general expertise you could shut down a grid, right. So I would 
like to have a sense of have any of your smart community 
systems already been subject to hacking or malicious attacks 
either attempted or successful?
    And I will start with particularly those of you who are 
operating in cities, so Ms. Gallagher and Mr. Chisek?
    Ms. Gallagher. Thank you. We have not yet, but of course I 
think some of the other cities are a little further along than 
we are, so I will probably pass to them.
    Ms. Clarke. Mr. Chisek? Ms. Berman?
    Mr. Chisek. Thank you. We have not as well, but we have 
been thinking for quite some time about cybersecurity and those 
issues are very important to us.
    Ms. Berman. So I would like to give you a more general 
answer because I am responsible for cybersecurity for all of 
the city systems, not just the connected ones we have talked 
about today but all of our systems. And cybersecurity is a 
concern across the country, certainly, and there is not enough 
funding for everything that cities should be doing in our 
current budgets or the small amount of grant money that we may 
be able to pull from the sources that we have today to do 
everything that we should be doing.
    The systems that we have talked about today in Chicago have 
not been hacked as yet. You never want to say that out loud. To 
say have they been attacked you actually can't answer that in 
any definitive way. None of the systems that you have that are 
monitoring that because to say have they been attacked that 
means you don't know if they have been successful, right.
    So to be very clear you actually don't know if they have 
been attacked yet, right. You can say that they haven't been 
hacked because that means they have been successful. You don't 
know if they have been attacked because everything is under 
attack all the time. So the City of Chicago and all of our 
systems are under attack all the time millions of times a day 
and that is a fact, and that is a fact in all cities across the 
U.S. every day.
    So it should be a focus of the Federal Government to help 
cities be safer from a cybersecurity perspective. And so I 
appreciate the question because it is a deep concern of mine 
and of my peers that are focused on these issues and we take it 
very seriously, but the support of the Federal Government would 
be greatly appreciated in that area.
    Ms. Clarke. Mr. Pazuchanics?
    Mr. Pazuchanics. Sure. The City of Pittsburgh has not 
experienced an attack at this point, but I will say that a big 
part of our success thus far has been partnership with the 
University of Pittsburgh, Chancellor Gallagher, himself an 
expert in cybersecurity, and a very strong program in 
cybersecurity that helps provide sort of a feedback loop for us 
and enables us to, you know, test out our systems, make sure 
that there is resiliency in those systems, so that city-
university partnership is very critical.
    Ms. Clarke. And I am glad that you mentioned that because 
part of what I would want to suggest because of the rollout of 
what you are all doing is that where you can get some 
partnerships going, particularly with the utilities you know 
that should be a bond that you build. Because you are 
absolutely correct, Ms. Berman, you are currently under attack 
right now as we sit here. All you need is for one to penetrate 
though for there to be catastrophic consequences.
    So I want to encourage to that extent some sort of 
partnering and I will certainly be your advocate here at the 
Federal level to see what we can do, because as we move into 
5G, as we become more expansive in our interconnectedness, you 
know, the more vulnerable we are going to become.
    Just quickly, as the administrators of your community smart 
systems, have you taken the cyber threats into account when 
planning for the future and, if so, how have you begun to 
prepare for them?
    Ms. Gallagher. We absolutely have. We actually as part of 
the Smart City Challenge we have put together a working group 
that is solely focused on this. We have a chief information 
officer that is leading that. We are very fortunate that we 
have the Ohio State University on our team.
    Another key leader for us is Nationwide Insurance because 
of course it is very important to them so they have lent us 
quite a few of their employees to help us in this effort. So 
you are absolutely right, it is all about partnerships and 
leaning on that private side and the university side who has 
already been down this road. So we take it absolutely 
seriously.
    Mr. Chisek. Thank you. The City of Portland also has been 
moving forward on this issue. We are creating a chief data 
officer position just simply because we are going to have 
sensor equipment spread throughout the city that is vulnerable 
that is bringing a whole host of data back to our open data 
platform.
    So thinking through that ahead of time has been critical. I 
think our partnerships with private industry have also helped 
us quite a bit, because just like we are under attack they are 
under attack and the more we can do things together, I think 
the more and better results we get.
    Ms. Clarke. Ms. Berman, did you want to add anything?
    Ms. Berman. Just quickly that like the other cities we plan 
for both security and privacy at the beginning of every project 
and there is someone assigned, a chief information security 
officer, who has that responsibility on every project.
    Ms. Clarke. Mr. Pazuchanics?
    Mr. Pazuchanics. Yes, agreed that it is significantly 
factored into the legal agreements and the structure of our 
regional data center with that intent and expected purpose in 
mind. Thank you.
    Ms. Clarke. Thank you. I appreciate your indulgence, Mr. 
Chairman. I yield back.
    Mr. Latta. Thank you very much. The gentlelady yields back, 
and the Chair now recognizes for 5 minutes the gentleman from 
Pennsylvania.
    Mr. Costello. Thank you, Mr. Chairman. Mr. Pazuchanics, I 
had the opportunity to visit CMU within the past year and learn 
about the autonomous vehicle testing and learned a great deal 
about how the technology and other types of technology have 
really contributed to what it means to have a smart community 
and how it really can create a lot more in the way of 
efficiency and improvement within not just a public works 
department but code enforcement and law enforcement, right on 
down the line.
    And I applaud you and everyone in Pittsburgh. It is 
Congressman Doyle and the other members of Congress from the 
Pittsburgh area, but in particular those in the city 
administration who really deserve to be commended. And I would 
like to ask a couple of questions related to that.
    The data utility system that you have, Deloitte report 
speaking about the impact of wireless connectivity to our 
communities estimates that adopting a smart grid would create 
$1.8 trillion in added revenue to the economy, saving the 
average consumer hundreds of dollars of year in energy costs. 
What are the biggest barriers that currently exist to deploying 
a smart energy grid and related to that how does the data 
utility help advance energy services to provide better 
resources for the City of Pittsburgh?
    Mr. Pazuchanics. Sure. I think one of the biggest 
challenges to a coordinated smart grid and a smart utility 
management system is the lack of coordination or cooperation 
among various entities sort of providing very similar 
services--natural gas companies, the electric company, the 
water systems--to the degree that we are able to share 
resources and solve multiple problems at the same time using 
similar infrastructure we are going to all be better off and 
see an economy of scale. So I think that coordination is key 
across those agencies.
    I think, you know, in Pittsburgh we are very fortunate to 
have Duquesne Light which is a very sophisticated and 
innovative electric utility that takes that seriously and is 
moving toward IPv6 infrastructure. But I do think that there is 
still, you know, a challenge with playing catch-up with some of 
the other utilities and we could see savings if they were all 
working together.
    Mr. Costello. And is that going to require affirmative 
steps on the procurement end moving forward?
    Mr. Pazuchanics. Yes. I think that a major hangup with a 
number of Smart City initiatives tends to be, or the way that 
our procurement system is structured now it tends to be sort of 
more purchase or product oriented rather than solution 
oriented. And to the degree that we are able to restructure to 
allow for some of these innovations in procurement to occur we 
are going to be better off.
    Mr. Costello. I would like to ask you about, and I will 
open this up to the rest of the panelists. Let's talk about 
health care and a smart community. Smart communities 
demonstrate real potential for a much needed transformation of 
health care from reactive and hospital centered to preventive, 
proactive, evidence based person centered focused on well-
being.
    How does a smart community, particularly in the municipal 
administration realm, go about improving a community's health 
care through its various applications?
    Mr. Pazuchanics. I think one of the key components of that 
is providing provision of first and last mile service to 
critical healthcare assets. You know, one of the major 
challenges in Pittsburgh given our topography is the fact that 
first mile or last mile can mean very different things 
depending on age, ability. The potential of Smart City 
deployments, particularly shared vehicles, autonomous vehicles, 
to enhance connection to the major hospitals and university 
systems that provide that health care, I think, is going to be 
very important and it is the way that health care and 
transportation are tied together.
    Dr. Clark. I think the smart and connected health 
initiatives, research initiatives, actually are a big effort in 
figuring these questions out. And I also would just point to 
things like when we are talking about air quality monitoring 
one of the things we can monitor is for asthma. And so what 
that allows--and real time. So what that allows families to do 
is to determine whether or not today is a good day to walk to 
school or whether today is a good day to drive. So it gives 
people agency about making decisions about how they navigate 
the built environment through these sensor systems that can 
improve their health.
    Mr. Gruendling. I think telehealth is a great topic when we 
are talking about smart communities, and I think that access to 
specialists who might not reside in a rural area for instance, 
you know, without the need to travel to a big city hospital you 
know for certain checkups or check-ins. You know, I think with 
a lot of smart connected medical devices now you know they 
report back automatically to a physician or a physicians' group 
and allow them to monitor a patient in a home type environment. 
And you know it is the connectivity that is allowing that to 
happen.
    Ms. Berman. I would like to build on what Dr. Clark said 
about the asthma example, because smart cities technologies can 
allow a city to go beyond just monitoring and changing behavior 
based on air quality and asthma but actually doing something 
about it. So taking that information and putting policies and 
services in place to improve air quality, which also speaks to 
the equality of health in the city because oftentimes the worse 
air quality also is where your underserved communities are, so 
evening that playing field and helping families be healthier as 
well.
    Mr. Chisek. I agree with everyone. But it could also help 
better deployment of resources and resources are scarce. So 
better deployment of these resources, be they health care, be 
they first responder, is one of the advantages of smart cities.
    Ms. Gallagher. We have been out talking to especially I 
would say our lower income neighborhoods as we have been going 
through this process and just asking them what do they see as 
their biggest challenge with health care, and what we have 
heard is transportation is a major barrier. When it will take 
you an hour and a half to get to your doctor's office by the 
time you change two or three buses, go to a hub, go to the next 
place, it is easier just not to go.
    So we have got to get them additional solutions. Not only 
the first and last mile, I a hundred percent agree, but just 
make it easier so it becomes just another thing to do versus a 
hindrance and an obstacle you have to overcome.
    Mr. Costello. Thank you. I yield back.
    Mr. Harper [presiding]. The gentleman yields back. The 
Chair now recognizes the gentleman from Florida, Mr. Bilirakis, 
for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it and 
I thank the panel for their testimony. For the entire panel a 
recent report by Deloitte on the impact of wireless 
connectivity to our communities notes that a 1-minute 
improvement in response time for emergency medical services 
could reduce fatalities by 8 percent, which means efforts to 
better coordinate responses or automatic deployment could save 
lives.
    Are you discussing with your emergency responders how they 
are utilizing this lifesaving technology? How are you planning 
to use connected cars to better serve the elderly and disabled 
populations? Whoever would like to go first, thank you.
    Ms. Gallagher. We actually do have a lot of conversations 
with our emergency management. And just a quick example of one 
thing we are doing is working again, and I think it has been 
brought up, with the traffic signals and having the traffic 
signals talk to the vehicles and talk to each other. So whether 
it is you know an emergency vehicle is coming, you keep the 
lights green, you stop the other vehicles so they can have 
quick passage you know that is one example.
    Another one perhaps is them specifically talking to each 
other and you know figuring out who is the closest and that 
sort of thing per the cars, they are not having to go through 
dispatch, and just a variety of things. But we are having those 
conversations.
    Mr. Bilirakis. Yes, please.
    Mr. Chisek. It does go back to that deployment of resources 
issue. So typically we have been sending fire trucks and 
ambulances to medical calls; by using this technology to triage 
that and pull the medical calls out we can better deploy our 
fire resources. We are also deploying some smart cities kiosks 
that can also be used as gathering points for information for 
the public in the event of a disaster. We have all heard about 
the Cascadia Subduction's own earthquake that is supposedly 
going to hit the West Coast, so that is also one of our 
strategies around resiliency.
    Mr. Bilirakis. Very good. Ms. Berman?
    Ms. Berman. We took a slightly alternative approach to 
getting emergency resources to where they needed to be. We did 
an analytics analysis of all of our 911 calls and there are 
pockets of recurring 911 calls around train stations, et 
cetera, during commutes, so now we pre-deploy ambulances and 
have them waiting, so that cuts your response time down quite a 
bit when the ambulance is already there. So we are doing things 
like that.
    Mr. Bilirakis. Very good. Sir?
    Mr. Gruendling. Thank you. We are definitely having these 
conversations at both the State and local levels with our first 
responders. Obviously we are a critical part of that enhanced 
911 system in the State of Vermont, so you know those 
conversations and the technology pieces and components that 
make that up are certainly ongoing. And you know one of the big 
initiatives that our State and working with our schools we have 
been trying to really enhance the location-specific 911 in 
those schools, which is something you know that is still in 
process.
    Mr. Bilirakis. Anyone else? Dr. Clark?
    Dr. Clark. From the research perspective, one of the things 
we are seeing is that different partners have different data 
available. So for first responders if they can, particularly 
when we are talking about events, these natural events like a 
storm, if they can get information from the utilities about the 
conditions on the ground they can respond much, much quicker 
and more safely to an event and help people. And it is building 
those partnerships and that trust so there is actually data 
exchanged is one of the things we think there could be a lot of 
value added.
    Mr. Bilirakis. Very good. Would you like to----
    Mr. Pazuchanics. To answer your second question regarding 
mobility for the elderly and integration of these technologies 
into elderly populations, one of the key initiatives we have 
been doing in that regard is building a level of technical 
sophistication with our elderly population, getting some of 
these technologies deployed out to our senior centers 
throughout the city, and enabling residents to understand how 
the system works so that new technologies such as TMCs and 
autonomous vehicles are a little bit less unfamiliar to that 
population.
    Mr. Bilirakis. Very good. Next question, I know I don't 
have a lot of time. I understand from a recent Deloitte report 
on the impact of wireless connectivity to our communities 
consumers are increasingly more attracted to wireless 
innovation with their health care with 70 percent saying that 
they would be interested in some form of connected healthcare 
service.
    What are your cities doing to help educate older citizens 
to the positive benefits of this technology? Who would like to 
go? I know we only have a couple of seconds.
    Mr. Chisek. So we are partnering with community 
organizations to help explain the technologies and the 
capabilities to some of our different populations in elderly, 
minority community as well. So we are using trusted voices in 
their community that they already have a relationship with to 
help communicate those things to those populations.
    Mr. Bilirakis. Very good. Anyone else have any ideas?
    Ms. Berman. We partner with Microsoft to provide a program 
called Cyber Seniors in our senior centers and libraries that 
teaches them basic computer skills if they need that and also 
how to use those skills to connect with their doctors, 
hospitals, and also non-medical resources as well so that they 
can get the resources they need online and learn those skills.
    Mr. Bilirakis. How effective has that been?
    Ms. Berman. We have had actually pretty good uptake. We 
trained more than a hundred thousand seniors in Chicago last 
year, and we are seeing increased uptake moving into this year.
    Mr. Bilirakis. Anyone else? OK, I will yield back. Thank 
you, Mr. Chairman.
    Mr. Harper. The gentleman yields back. Seeing that there 
are no further members wishing to ask questions, I would like 
to thank all of our witnesses again for being here. I am sure 
when this was scheduled you didn't know you would have a 
snowstorm to get through, so I hope the travel wasn't too 
difficult, but we appreciate the effort and your attendance 
today.
    Before we conclude, I would like to include the following 
documents to be submitted for the record by unanimous consent: 
a statement from a CA Technologies, a statement from Honda 
North America, a statement from Panasonic, a statement from ITS 
America, a joint statement from CompTIA and Technology Councils 
of North America, a joint statement from ITI, CompTIA, Smart 
Cities Council and TIA, and a Deloitte report from CTIA for the 
record as well as a letter from EPIC. And, without objection, 
those are admitted.
    [The information appears at the conclusion of the hearing.]
    Mr. Harper. And pursuant to committee rules, I remind 
members that they have 10 business days to submit additional 
questions for the record, and I ask that witnesses submit the 
response within 10 business days upon receipt of the questions. 
Without objection, the subcommittee is adjourned.
    [Whereupon, at 11:57 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
